                                                      U.S. Department of Justice


                                                      United States Attorney
                                                      District of Maryland


Rod J. Rosenstein                                     36 S. Charles Street                          410-209-4800
United States Attorney                                Fourth Floor                        TTY/TDD:410-962-4462
                                                      Baltimore, Maryland 21201-2692                410-209-4885
Vickie E. LeDuc                                                                                 FAX 410-962-3091
Public Information Officer                                                                Vickie.LeDuc@usdoj.gov


July 20, 2011
FOR IMMEDIATE RELEASE                                CONTACT AUSA VICKIE E. LEDUC or
www.justice.gov/usao/md                              MARCIA MURPHY at (410) 209-4885

  LEADER AND CO-CONSPIRATOR IN BROADWAY DOCUMENT MILL SENTENCED
   FOR MANUFACTURING AND SELLING FAKE IDENTIFICATION DOCUMENTS

              Nine Defendants Operated in the 200 Block of South Broadway in Baltimore and
                   Sold Thousands of Fraudulent Government Identification Documents

        Baltimore, Maryland - Two Mexican nationals residing in Baltimore were sentenced to
prison for conspiring to a operate a document mill in the 200 block of South Broadway in Baltimore,
selling fraudulent government identification documents manufactured as part of the conspiracy.

        U.S. District Judge William D. Quarles, Jr., sentenced Miguel Reyes-Ontiveros, age 41,
yesterday to 57 months in prison followed by three years of supervised release, and sentenced
Adrian Badillo-Carrasco, a/k/a “Rana,” age 36, on July 17, 2012, to 33 months in prison followed by
three years of supervised release. Both defendants are in the United States illegally and face
deportation from the United States upon completing their sentence

       The sentences were announced by United States Attorney for the District of Maryland Rod
J. Rosenstein; Special Agent in Charge William Winter of U.S. Immigration and Customs
Enforcement’s (ICE) Homeland Security Investigations (HSI); and Special Agent in Charge Michael
McGill of the Social Security Administration - Office of Inspector General, Philadelphia Field
Division.

        “Document fraud poses a severe threat to national security and puts the security of our
communities at risk because it creates a vulnerability that may enable terrorists, criminals and illegal
aliens to gain entry to and remain in the United States,” said HSI Baltimore Special Agent in Charge
William Winter. “This investigation resulted in the dismantlement of a document fraud criminal
organization based out of Maryland and the arrest of its leaders. Homeland Security Investigations
will move aggressively to investigate and bring to justice those who potentially compromise the
integrity of America’s legal immigration system.”

        According to the plea agreements and other court documents, responsibility for
manufacturing identity documents – including permanent resident cards and social security cards -
rotated among various individuals. From June 2008 through May 2010, Ivan Altamirano-Perez,
a/k/a “Elmer,” age 32, and his brother, Roberto Morales-Perez, a/k/a “Piza,” age 26, received the
income from manufacturing the identity documents. Beginning in May 2010 and continuing until
their arrests, the Perez brothers shared the territory and income with Miguel Reyes-Ontiveros
(collectively, the Operators). The location of the manufacturing operation changed frequently to
avoid detection.

       In addition to manufacturing the documents, the Operators sold the documents themselves or
helped collect orders from salesmen. The defendants used a group of at least 10 individuals,
including Badillo-Carrasco, to sell and distribute the fake identity documents. The documents were
offered for sale and distributed in and around the 200 block of South Broadway in Baltimore.

        According to their plea agreements, Badillo-Carrasco and the other salesmen solicited
individuals in the Broadway territory to purchase the fake identification documents, either in person
or by distributing business cards. The salesman would negotiate a price with the buyer, usually
between $130 and $160, and obtain a picture and the information which the buyer wanted on the
identification card. The salesman would then call in the order to the Operator who was working that
week. The completed identity document would subsequently be provided to the salesman to be sold
to the buyer.

       The defendants manufactured and sold thousands of fraudulent identification documents for
which they are alleged to have received approximately $1.68 million.

        On February 15, 2012, a defendant in a related case, Victor Lopez Escamilla, was convicted
by a jury of manufacturing and trafficking in counterfeit identity document, social security number
cards, and immigration identity documents and was sentenced to 97 months in prison.

        All of the nine defendants have pleaded guilty in this case, and the remaining seven
defendants are awaiting sentencing. Each faces a maximum sentence of 15 years in prison for
conspiracy to commit fraud and a maximum of 10 years in prison for fraud and misuse of
immigration documents. In addition, the Perez brothers each face a maximum of five years in prison
for social security fraud and Altamirano-Perez faces a maximum of 15 years in prison for
identification document fraud. The defendants, all of whom are in the U.S. illegally, face
deportation upon the completion of their sentences.

      Anyone who has information on this type of fraud may contact ICE via its toll-free hotline at
1-866-DHS-2ICE (1-866-347-2423) or by visiting www.ice.gov/tips.

       United States Attorney Rod J. Rosenstein praised HSI Baltimore and the Social Security
Administration - Office of Inspector General for their work in the investigation, and thanked the
U.S. State Department Diplomatic Security Service - Washington Field Office; the Maryland Motor
Vehicle Administration - Investigation and Security Services Division; and the Baltimore County
Police Department for their assistance. Mr. Rosenstein thanked Assistant United States Attorneys
Tamera L. Fine and Judson T. Mihok, who prosecuted the case.
